AUDIT OF OFFICE OF JUSTICE PROGRAMS

      GRANTS AWARDED TO THE

   CITY OF MONTGOMERY, ALABAMA



      U.S. Department of Justice

    Office of the Inspector General

             Audit Division


     Audit Report GR-40-12-003

          September 2012

            AUDIT OF OFFICE OF JUSTICE PROGRAMS
                     GRANTS AWARDED TO THE
                 CITY OF MONTGOMERY, ALABAMA

                             EXECUTIVE SUMMARY

      The Department of Justice, Office of the Inspector General, Audit
Division, has completed an audit of Edward Byrne Memorial Justice
Assistance Grants (JAG), including a 2009 Recovery Act grant,
awarded by the Bureau of Justice Assistance and a Weed and Seed
grant, awarded by the Community Capacity Development Office to the
City of Montgomery, Alabama. 1

       The purposes of the grants were to: (1) support a broad range
of activities to prevent and control crime based on local needs and
conditions and (2) assist local communities in developing and
implementing crime prevention programs. As shown in Exhibit I, since
2007 the City of Montgomery was awarded over $1.5 million to
implement these activities.

                 Exhibit I: Grants awarded to the

                  City of Montgomery, Alabama

                                                Award
  Award Number     Start Date    End Date                                 Program
                                               Amount
 2008-DJ-BX-0304   10/01/2007   09/30/2011       $64,258                     JAG
                                                                          Weed and
 2008-WS-QX-0005          06/01/2008      11/30/2009         $150,000             2
                                                                            Seed
 2009-DJ-BX-0806          10/01/2008      09/30/2012         $209,795        JAG
                                                                             JAG
 2009-SB-B9-0926          03/01/2009      02/28/2013         $862,549     (Recovery
                                                                             Act)
                                                                          Weed and
 2009-WS-QX-0115          06/01/2009      08/31/2010         $142,000
                                                                            Seed
 2010-DJ-BX-1252          10/01/2009      09/30/2013        $151,521         JAG
                                                Total    $1,580,123
Source: Office of Justice Programs



       1
           As of June 2011, the Community Capacity Development Office closed.
       2
         We determined the City of Montgomery applied grant expenditures for
Grant Number 2008-WS-QX-0005 to Grant Number 2009-WS-QX-0115. Grant
Number 2008-WS-QX-0005 was included in the audit only to the extent the grant
expenditures were applied to Grant Number 2009-WS-QX-0115.


                                          i
Recovery Act

       In February 2009, Congress passed the American Recovery and
Reinvestment Act (Recovery Act) to help create jobs, stimulate the
economy and investment in long-term growth, and foster
accountability and transparency in government spending. The
Recovery Act provided $787 billion for tax cuts, education, health care,
entitlement programs, contracts, grants, and loans. Recipients of
Recovery Act funds are required to report quarterly to
FederalReporting.gov on how they spent Recovery Act funds and the
number of jobs created or saved. The Department of Justice received
nearly $4 billion in Recovery Act funds and made almost $2 billion of
that funding available through the JAG Program.

Audit Results

      The purpose of the audit was to determine whether the City of
Montgomery used grant funds for costs that were allowable,
supported, and in accordance with applicable laws, regulations,
guidelines, and terms and conditions of the grants; whether the city
met or was on track to meet the goals and objectives outlined in the
grant programs and applications; and submitted timely and accurate
Recovery Act spending and job data to FederalReporting.gov.

       The objectives of the audit were to determine whether the City
of Montgomery complied with essential grant conditions pertaining to:
(1) internal controls; (2) grant drawdowns; (3) grant expenditures;
(4) budget management and control; (5) matching costs; (6) property
management; (7) financial, progress, and Recovery Act reports;
(8) grant goals and accomplishments; (9) monitoring contractors; and
(10) monitoring subrecipients.

      We found the City of Montgomery generally complied with
requirements pertaining to internal controls, grant drawdowns, budget
management and control, property management, and matching costs.
However, we found weaknesses in the areas of grant expenditures,
financial and programmatic reports, grant goals and accomplishments,
and monitoring of contractors and subrecipients.

      Specifically, we found the City of Montgomery:

   •	 charged a total of $42,513 in unsupported and unallowable costs
      to the grant awards;


                                   ii
  •	 did not always submit timely and accurate financial, progress,
     and Recovery Act reports;

  •	 could not show that it met grant goals and objectives;

  •	 did not document the monitoring of contractors; and

  •	 did not fulfill its responsibilities for subrecipient monitoring.

      Based on our audit results we make three recommendations to
address dollar-related findings and four recommendations to improve
the management of Department of Justice grants. These are
discussed in detail in the Findings and Recommendations section of the
report. Our audit objectives, scope, and methodology are discussed in
Appendix 1.




                                    iii
                                  TABLE OF CONTENTS


INTRODUCTION ........................................................................ 1

     Background.......................................................................... 2

     Audit Approach ..................................................................... 3

FINDINGS AND RECOMMENDATIONS........................................ 6

     Internal Controls................................................................... 6

          Financial Management System.......................................... 6

          Recovery Act Planning ..................................................... 6

          Single Audits .................................................................. 7

     Drawdowns .......................................................................... 8

     Budget Management and Control ............................................ 9

     Grant Expenditures ..............................................................10

          Personnel Costs .............................................................10

          Other Direct Costs..........................................................12

     Matching Costs ....................................................................13

     Property Management ..........................................................14

     Grant Reports......................................................................15

          Federal Financial Reports ................................................15

          Progress Reports............................................................16

          Quarterly Recovery Act Reports .......................................17

     Grant Goals and Accomplishments .........................................19

          JAG Awards ...................................................................19

          Weed and Seed Award....................................................21

     Monitoring Contractors .........................................................22

     Monitoring Subrecipients.......................................................23

     Conclusion ..........................................................................25

     Recommendations ...............................................................26


APPENDIX 1 – OBJECTIVES, SCOPE, AND METHODOLOGY ...... 27


APPENDIX 2 – SCHEDULE OF DOLLAR-RELATED FINDINGS .... 29


APPENDIX 3 – OJP’S RESPONSE TO THE DRAFT

             AUDIT REPORT................................................ 30

APPENDIX 4 – THE CITY OF MONTGOMERY’S RESPONSE TO
             THE DRAFT AUDIT REPORT…………………………33

APPENDIX 5 – OFFICE OF THE INSPECTOR GENERAL ANALYSIS
             AND SUMMARY OF ACTIONS NECESSARY
             TO CLOSE THE AUDIT REPORT ……………………36
                                  INTRODUCTION

       The Department of Justice, Office of the Inspector General, Audit
Division, has completed an audit of Edward Byrne Memorial Justice
Assistance Grants (JAG), including a 2009 Recovery Act grant, awarded by
the Bureau of Justice Assistance and a Weed and Seed grant awarded by the
Community Capacity Development Office to the City of Montgomery,
Alabama. 1 The purposes of the grants were to: (1) support a broad range
of activities to control and prevent crime based on local needs and
conditions, and (2) assist local communities in developing and implementing
crime prevention programs.

      The JAG program is the primary source of federal criminal justice
funding for state and local jurisdictions. The JAG program allows states,
tribes, and local governments to support a broad range of activities to
prevent and control crime based on their own local needs and conditions.
Grant funds may be used for:

     •    law enforcement programs,

     •    prosecution and court programs,

     •    prevention and education,

     •    corrections and community corrections programs,

     •    drug treatment, and

     •    technology improvement programs.

      In February 2009, Congress passed the American Recovery and
Reinvestment Act (Recovery Act) to help create jobs, stimulate the economy
and investment in long-term growth, and foster accountability and
transparency in government spending. The Recovery Act provided
$787 billion for tax cuts, education, health care, entitlement programs,
contracts, grants, and loans. Recipients of Recovery Act funds are required
to report quarterly to FederalReporting.gov on how they spent Recovery Act
funds and the number of jobs created or saved. The Department of Justice
received nearly $4 billion in Recovery Act funds and made almost $2 billion
of that funding available through the JAG Program.




     1
         As of June 2011, the Community Capacity Development Office closed.

                                           1
      The Weed and Seed program intended to prevent, control, and reduce
violent crime, drug abuse, and gang activity in designated high-crime
neighborhoods. The strategy involves a two-pronged approach. Law
enforcement agencies seek to “weed out” violent criminals and reduce drug
problems. Public and private community-based organizations seek to “seed”
human services, including prevention, treatment, and neighborhood
restoration programs.

     As shown in Exhibit 1, since 2007, the City of Montgomery was
awarded over $1.5 million to implement these activities.

                Exhibit 1: Grants awarded to the

                  City of Montgomery, Alabama

  Award Number   Start Date    End Date     Award                               Program
                                           Amount
 2008-DJ-BX-0304 10/01/2007 09/30/2011      $64,258                               JAG
 2008-WS-QX-0005 06/01/2008 11/30/2009     $150,000                            Weed and
                                                                                 Seed 2
 2009-DJ-BX-0806          10/01/2008       09/30/2012          $209,795           JAG
 2009-SB-B9-0926          03/01/2009       02/28/2013          $862,549           JAG
                                                                               (Recovery
                                                                                  Act)
 2009-WS-QX-0115 06/01/2009                08/31/2010          $142,000        Weed and
                                                                                 Seed
 2010-DJ-BX-1252          10/01/2009       09/30/2013   $151,521                  JAG
                                                 Total $1,580,123
Source: Office of Justice Programs

Background

       The City of Montgomery is the capital and second largest city of the
state of Alabama, with a population of nearly 202,000 and a police force that
is allocated 524 sworn officers as of August 2, 2012. The JAG and Recovery
Act grants were based on joint applications submitted by the City of
Montgomery and Montgomery County. 3 As the primary recipient of these

       2
          We determined the City of Montgomery applied grant expenditures for Grant
Number 2008-WS-QX-0005 to Grant Number 2009-WS-QX-0115. Grant Number
2008-WS-QX-0005 was included in the audit only to the extent the grant expenditures were
applied to Grant Number 2009-WS-QX-0115.
       3
          When one unit of local government bears more than 50 percent of another unit of
local government’s costs of prosecution and incarceration, those units are required to submit
a joint grant application for Byrne JAG funding.


                                              2

grants, the city serves as the fiscal agent and is responsible for monitoring
the county’s compliance with applicable laws, regulations, guidelines, grant
conditions, spending, and outcomes and benefits attributed to the use of
grant funds. 4

      The city’s JAG manager administers the program. The JAG manager
prepares the grant application, requisitions for grant budgeted items, and
annual progress reports. That person also approves invoices for payment.
The JAG manager receives assistance from the JAG accountant. The JAG
accountant is responsible for the grant’s accounting functions, drawdown
requests, and financial reporting. The JAG accountant also reviews the
invoices and ensures that expenditures are in line with the grant’s budget
approved by the Office of Justice Programs.

      The City of Montgomery also serves as the fiscal agent for
the Montgomery Weed and Seed program. The Weed and Seed coordinator
administers the program and receives assistance from the Weed and Seed
accountant, to ensure proper accounting for grant expenditures and
reporting. As the fiscal agent, the city processes Weed and Seed invoices
for payment, prepares drawdown requests, and completes required reports.

Audit Approach

      The purpose of this audit was to determine whether the City of
Montgomery used grant funds for costs that were allowable, supported, and
in accordance with applicable laws, regulations, guidelines and terms and
conditions of the grants; whether the city met or was on track to meet the
goals and objectives outlined in the grant programs and applications; and
submitted timely and accurate Recovery Act spending and job data to
FederalReporting.gov.

       The objectives of the audit were to determine whether the City of
Montgomery complied with essential grant conditions pertaining to:
(1) internal controls; (2) grant drawdowns; (3) grant expenditures;
(4) budget management and control; (5) matching costs; (6) property
management; (7) financial, progress, and Recovery Act reports; (8) grant
goals and accomplishments; (9) monitoring contractors; and (10) monitoring
subrecipients.


       4
          The Montgomery Police Department is a unit of the City of Montgomery and the
Montgomery County Sheriff’s Office is a unit of Montgomery County. For administration of the
JAG program, the Montgomery Police Department followed the city’s policies and procedures
for grant administration.


                                             3

       We tested compliance with what we consider to be the most important
conditions of the grant awards. Unless otherwise stated in the report, the
criteria we audit against are contained in the grant award documents, Office
of Justice Programs Financial Guide, Code of Federal Regulations, Office of
Management and Budget Circulars and the Recovery Act. We tested the City
of Montgomery’s:

  •	 internal controls to identify plans, policies, methods, and procedures
     designed to ensure the city and the grant programs met fiscal and
     programmatic requirements and the goals and objectives of the
     grants;

  •	 grant drawdowns to determine whether grant drawdowns were
     adequately supported and if the City of Montgomery managed grant
     receipts in accordance with federal requirements;

  •	 grant expenditures to determine the accuracy and allowability of
     costs charged to the grant;

  •	 budget management and control to identify any budget deviations
     between the amounts budgeted and the actual costs for each cost
     category;

  •	 matching costs to determine if the City of Montgomery provided the
     required matching share of grant costs;

  •	 property management to determine if property items acquired with
     grant funds are tracked in a system of property records, adequately
     protected from loss, and used for grant purposes;

  •	 financial and progress reports to determine if those reports were
     submitted timely and accurately reflect grant activity;

  •	 Recovery Act reporting to determine if the reports were submitted
     timely and accurately reflected spending and job data to
     FederalReporting.gov;

  •	 grant goals and accomplishments to determine if the City of
     Montgomery met or was on track to meet the goals and objectives
     outlined in the grant programs and applications;

  •	 monitoring contractors to determine if the City of Montgomery took
     appropriate steps to ensure contractors complied with applicable grant
     requirements; and

                                     4

  •	 monitoring subrecipients to determine whether the City of
     Montgomery took appropriate steps to ensure that subrecipients met
     the fiscal and programmatic requirements of the grants.

       In conducting our audit, we performed sample testing in the areas of
drawdowns, grant expenditures, matching costs, property management, and
grant goals and accomplishments. In addition, we reviewed the internal
controls for the financial management system, the timeliness and accuracy
of financial, progress, and Recovery Act reports, evaluated progress toward
grant goals and accomplishments, and the monitoring of contractors and
subrecipients.




                                     5

                  FINDINGS AND RECOMMENDATIONS

     Our audit determined that the City of Montgomery: (1) charged
     $42,513 in unsupported and unallowable costs to grant awards;
     (2) did not always submit timely and accurate financial,
     progress, and Recovery Act reports; (3) could not show that it
     met grant goals and objectives; (4) did not document the
     monitoring of its contractors; and (5) did not fulfill its
     responsibilities for subrecipient monitoring.

Internal Controls

      According to the Financial Guide, the grantee is responsible for
establishing and maintaining an adequate system of accounting and internal
controls for itself, and for ensuring that an adequate system exists for its
subrecipients. We reviewed the City of Montgomery’s financial management
system, Single Audit Reports, and policies and procedures to assess the risk
of non-compliance with laws, regulations, guidelines, and terms and
conditions of the grant. We also interviewed city employees working in
areas such as payroll, purchasing, and accounts payable, and we observed
accounting activities.

Financial Management System

      The city’s financial system is comprised of standard components for
accounts payable, payroll, general ledger, purchasing, fixed assets, revenue
and licensing, budget, and risk management. The financial system appears
to have internal controls to ensure compliance with applicable requirements
of the grant programs we audited. The system’s controls provide for the
separation of duties, tracking of grant expenditures for each grant, and
traceability of grant expenditures to supporting documentation.

Recovery Act Planning

      We reviewed the city’s planning for the receipt and use of the JAG
funds. The city did not establish internal controls to segregate the
preparation, review, and approval processes for the Recovery Act reports.
We also found the city did not establish internal controls for managing its
subrecipient, Montgomery County. We determined that the JAG manager
prepares and submits progress and Recovery Act reports without the reports
being reviewed. This process resulted in inaccurate reporting and
incomplete progress reports. These instances are discussed in detail in the
Grant Reports and Monitoring Subrecipient sections of this report.


                                     6

Single Audits

      According to Office of Management and Budget Circular A-133, the city
is required to perform a Single Audit annually with the report due no later
than 9 months after the end of the fiscal year. The city’s fiscal year is from
October 1 through September 30. We found that the 2009 Single Audit
report was issued on March 26, 2010, and the 2010 Single Audit report was
issued on March 21, 2011. The city issued both reports in accordance with
the reporting requirements.

       We reviewed the fiscal years 2009 and 2010 Single Audit reports and
identified findings that could affect Department of Justice grants. These
findings and the city’s responses are as follows.

   •	 Finding 09-SA-01 — Davis Bacon

       The city's policies and procedures did not ensure all rates on the
       certified payrolls were compared to the federal wage rates provided by
       the awarding agency.

       In response to the audit, the city hired two technicians to assist grant
       coordinators on projects that require Davis-Bacon monitoring. 5 The
       technicians were to ensure the timely submission of all project payrolls,
       review payroll deficiencies, and report such deficiencies to the grant
       coordinators. Subrecipients and contractors were to receive notification
       of any Davis-Bacon deficiencies. The city planned to withhold
       subrecipient and contractor payments until deficiencies are
       corrected. Additionally, at the beginning of each grant cycle, the city
       planned to identify all projects that require Davis-Bacon monitoring and
       develop a schedule for onsite monitoring.

   •   Findings 09-SA-02 and 09-SA-03 – Subrecipient Monitoring

       The city was not consistently receiving and reviewing subrecipients’
       annual audits.

       In response, the city planned to make a substantial change to its
       application process. All entities that apply for funding were to be
       required to have at least 2 years of active experience as a nonprofit or
       for-profit organization and possess a valid, certified audit report. The

       5
          The Davis-Bacon Act is a federal law that governs the minimum wage rate to be paid
to laborers and mechanics employed on federal public work projects to preserve local wage
standards and promote local employment by preventing contractors who bid on public
contracts from basing bids on the use of labor recruited from foreign sources.

                                             7

       city also planned to incorporate audit reports as part of its application
       review process. During the review process, the city planned to
       disqualify applicants for receiving funds when those applicants had an
       audit report that indicated gross misuse of funds.

   •	 Finding 09-SA-04 – Subrecipient Monitoring

       The city had not been monitoring the subrecipient’s use of federal
       awards.

       In response, the city updated its procedures for monitoring grant funds
       allocated to the Montgomery County Sheriff's Office in accordance with
       audit findings. Under the procedures, the city would obtain all invoices
       from the county pertinent to grant funds.

   •   Finding 10-SA-01 – Schedule of Expenditure of Federal Award

       The city prepared the schedule but policies and procedures did not
       provide adequate internal controls over the preparation of the entire
       schedule.

       In response, the city stated that the manual process of preparing the
       schedule would be converted to an automated process with the
       implementation of new accounting software. The grant accountants
       and another accountant were to review the schedule to ensure that all
       federal expenditures were included.

      Because audit finding 09-SA-04 addressed how the city had not been
monitoring subrecipients’ use of federal awards, we consider this finding to
have a direct effect on the JAG and Recovery Act grants. During the audit,
we tested whether the city implemented its planned corrective actions. The
results of our testing are discussed in detail in the Monitoring Subrecipients
section of this report.

Drawdowns

      The Financial Guide generally requires that recipients time their
drawdown requests to ensure that federal cash-on-hand is the minimum
needed for disbursements to be made immediately or within 10 days;
however, JAG recipients may draw down any or all grant funds in advance of
grant costs.

      We interviewed the city officials responsible for requesting drawdowns
and reviewed the city’s accounting records and drawdown procedures. City

                                        8

officials told us that drawdowns were based on the actual expenditures
recorded in the accounting records. City officials also told us that the county
receives a one-time advance of 40 percent of the JAG awards in accordance
with the Interlocal Cooperative Agreement for each grant.

      We compared each drawdown amount to the city’s accounting records
and found that the JAG drawdowns matched grant accounting records. For
the Weed and Seed grant, we compared each drawdown amount to the city’s
accounting records and found that the drawdowns matched the grant
accounting records. Based on our comparison of drawdowns to the
accounting records, the city did not have excess federal cash-on-hand.

      The city deposits Department of Justice funds, including Recovery Act
funds into a special revenue account and those funds are identified by an
account fund code that is unique to each grant. We reviewed this account
and confirmed that the funds drawn down were deposited electronically.

Budget Management and Control

       According to the Financial Guide, grantees may request a modification
to their approved budgets to reallocate dollar amounts among approved
budget categories. When certain changes to approved budgets are
anticipated, grantees must obtain advance approval from the Office of
Justice Programs. The changes requiring approval are:

   •	 any budget revision that changes the scope of the project and affects a
      cost category that was not included in the original budget, and

   •	 cumulative transfers among approved budget categories that exceed
      or are expected to exceed 10 percent of the total approved budget.

       Failure to adequately control grant budgets could lead to wasteful or
inefficient spending of governmental funds.

     We compared the city’s actual grant costs to the JAG budget
worksheets and found no evidence of budget revisions that changed the
scope of the JAG awards. However, in reviewing transactions for the
subrecipient, we found the county charged a $7,250 transaction that was a
change in scope, as discussed in the Monitoring Subrecipients section of this




                                      9

report. For JAG and Recovery Act awards, we did not test cumulative
transfers among budget categories because these grants do not receive
budget approval. 6

       We compared the city’s actual grant costs to the budget approved in
the financial clearance memoranda for the Weed and Seed Grant Number
2009-WS-QX-0115. We found no evidence of budget revisions that changed
the scope of the project or transfer costs between approved budget
categories that exceeded 10 percent of the award amounts for this grant.

Grant Expenditures

      According to the Financial Guide, allowable costs are those identified in
Office of Management and Budget circulars and the grant program’s
authorizing legislation. In addition, costs must be reasonable and
permissible under the specific guidance of the grants.

      We reviewed a sample of personnel costs and other direct costs
charged to grant funds and found the city charged $36,329 in unallowable
and unsupported costs to grant funds. We question $35,263 of this amount
and do not question $1,066 because of the minimal value of the transactions
involved. Details of the costs are discussed below.

Personnel Costs

      We reviewed the Office of Justice Programs approved budgets for
grant-funded positions. The JAG-funded grants did not include personnel
costs. However, Weed and Seed Grant Number 2009-WS-QX-0115 included
personnel costs for a Safe Haven coordinator and police officers’ overtime. 7
For this grant, we reviewed personnel files for 14 individuals identified as
grant-funds employees. We verified their names, positions, salaries, and
fringe benefits to the personnel files and did not identify any discrepancies.

      We traced the Safe Haven coordinator’s payroll costs to timesheets for
two non-consecutive pay periods to determine if costs were computed
correctly, properly authorized, accurately recorded, and properly allocated to

       6
       The Office of Justice Programs documents budget approval by a financial clearance
memorandum. JAG awards do not receive a financial clearance memorandum.
       7
         A Safe Haven is a multi-service center where a variety of youth and adult services
are coordinated in one or more highly visible and accessible facilities that are secure against
crime and illegal drug activity. All Weed and Seed areas are required to have at least one
Safe Haven.


                                               10

the grant. We found the city charged actual personnel and fringe benefit
costs instead of budgeted costs to the grant, which resulted in salary being
overcharged by $63 and fringe benefits being overcharged by $24. We did
not question these charges because of the minimal value of the amounts.

      We identified seven transactions, totaling $351 in three fringe benefit
categories that were incurred after the grant period ended. These costs
were charged to the grant and are considered unallowable because the city
incurred these costs outside of the project period. The following exhibit lists
these costs.

                    Exhibit 2: Unallowable Personnel Costs for

                        Grant Number 2009-WS-QX-0115

                          Description                        Amount
                  Social Security                                       $182
                  Retirement                                            $162
                  Group Life Insurance                                    $7
                  Total                                               $ 351 8
                 Source: OIG Analysis of Personnel Costs

       The Weed and Seed grant budget also included overtime for police
officers in the Weed and Seed area. 9 The city used the overtime to pay for
up to 14 officers selected for details within the Weed and Seed area.

       Because of the number of officers and their changing shifts, we tested
overtime costs for 5 non-consecutive pay periods for all officers that
received overtime during these pay periods. We traced 57 transactions
totaling $6,960 to the payroll detail reports and found that overtime hours
were generally supported by an overtime slip, approved by a supervising
officer, and related to Weed and Seed activities. However, we identified
85.5 overtime hours valued at $2,409 that was unsupported. Of these, 26.5
hours were not supported by an overtime slip, 50 hours were not approved
by a supervisor, and for 9 hours the overtime rate did not match the costs
charged to the grant. 10



       8
            We did not question this amount because of its minimal value.
       9
         Weed and Seed is a community-based strategy that aims to prevent, control, and
reduce violent crime, drug abuse, and gang activity in designated high-crime neighborhoods.
       10
          According to 28 Code of Federal Regulations, Section 66.20, accounting records
must be supported by such documentation as cancelled checks, paid bills, payrolls, and time
and attendance records.

                                               11

Other Direct Costs

       As shown in Exhibit 3, we selected a judgmental sample of 94
transactions totaling over $1.2 million for testing, which is 97 percent of
the direct costs charged to the grants we audited.

                  Exhibit 3: Grant Transactions Testing
                                        Number of                 Tested
                             Funds                                           Percent
   Grant Number                        Transactions             Transaction
                           Expended                                          Tested
                                          Tested                 Amounts
 2008-DJ-BX-0304               $64,258       5                       $64,258  100%
 2009-DJ-BX-0806              $209,795            17                   $209,795    100%
 2009-SB-B9-0926             $801,121             11                   $801,121    100%
 2009-WS-QX-0115             $ 81,775             56                    $ 44,183    54%
 2010-DJ-BX-1252             $118,691              5                   $118,691    100%
 Totals                  $ 1,275,640              94                $ 1,238,048     97%
Source: City of Montgomery accounting records and OIG analysis of grant expenditures

      We found that all 94 expenditures were properly classified and
supported, and the invoices were complete and accurate. However, Exhibit
4 shows 10 transactions that were not properly authorized or charged to the
grant.

                       Exhibit 4: Transaction Testing Results
 Sample          Grant                     Transaction Testing              Transaction
   No.          Number                           Results                      Amount
   11       2009-DJ-BX-0806         Not   properly authorized                       $840
   12       2009-DJ-BX-0806         Not   properly authorized                    $23,394
   13       2009-DJ-BX-0806         Not   properly authorized                     $1,958
   14       2009-DJ-BX-0806         Not   properly authorized                     $3,636
   15       2009-DJ-BX-0806         Not   properly authorized                       $280
   16       2009-DJ-BX-0806         Not   properly authorized                     $2,746
Total Unsupported Cost                                                          $32,854
   15       2009-WS-QX-0115         Not   properly   charged   to   grant           $305
   31       2009-WS-QX-0115         Not   properly   charged   to   grant           $127
   46       2009-WS-QX-0015         Not   properly   charged   to   grant            $46
   51       2009-WS-QX-0115         Not   properly   charged   to   grant           $237
Total Unallowable Cost                                                             $715
Total Costs                                                                     $33,569
Source: OIG Analysis of Grant Transactions

       Grant Number 2009-DJ-BX-0806 – We identified six transactions
totaling $32,854 as unsupported questioned costs. The JAG manager
requested a special payment authorization from the Finance Department to

                                             12
process the payment for six transactions. The city could not locate and
provide us the special payment authorization and the material receipt
documents to support these transactions. 11 Consequently, we question the
$32,854 as unsupported costs.

       Grant Number 2009-WS-QX-0115 – We identified four transactions
totaling $715 as unallowable costs. The city divided and applied the costs of
two transactions (sample 15 and 46) between the 2008 Weed and Seed
grant and the 2009 grant. 12 According to the Financial Guide, funds
specifically budgeted and received for one project may not be used to
support another. For a third transaction (sample 31), the city charged
mileage to the 2009 grant prior to the start date. For a fourth transaction
(sample 51), the city reimbursed hotel expenses that were not in the
approved contract budget for the 2009 grant. We did not question the $715
in unallowable costs ($305, $127, $46, and $237) because of the minimum
value of these transactions.

Matching Costs

      According to the Financial Guide, matching funds for a grant project
must be in addition to funds that would otherwise be available. Grant
recipients must maintain accounting records that show the source, amount,
and timing of all matching contributions. The full matching share of costs
must be obligated by the end of the award period.

      We determined the JAG-funded awards did not have a matching costs
requirement. The Weed and Seed grant required the city to provide 25
percent of the program’s costs ($47,333/$189,333) from local sources. In
the grant application, the city limited the matching cost to a percentage of
personnel costs. We reviewed all matching costs transactions, totaling
$47,333. We traced these transactions through the grantee’s accounting
system and compared the transactions to supporting documentation. We
determined that the city’s actual and planned matching costs complied with
the grant award requirement.




       11
          A special payment authorization is a form used by the Finance Department to
authorize payments. This form requires original signatures.
       12
         We did not audit Grant Number 2008-WS-QX-0005; however, during our review of
Grant Number 2009-WS-QX-0115 supporting documentation for grant expenditures, we
determined the city moved costs from one grant to the other.

                                            13

Property Management

      According to the Financial Guide, grant recipients must be prudent in
the acquisition and management of property bought with federal funds.
Property acquired with federal funds should be used for criminal justice
purposes, adequately protected from loss, and the property records should
indicate that the property was purchased with federal funds.

      We determined the city did not maintain property records for all
grant-funded accountable property but did maintain accountable records for
items that cost $5,000 or more. We also determined the city’s records did
not identify the source of funds used to acquire the property. However, we
did not take exception because the city followed its procedures for
accountable property, which is allowed by the Financial Guide. The JAG
manager and Weed and Seed coordinator provided us a list of equipment
that they maintained for each grant’s equipment purchases. We were
unable to verify that the equipment lists provided to us included all
grant-funded equipment, but we used the lists for our testing because it was
the only such record available. The lists contained 299 items valued at
$644,482. We judgmentally selected 64 items, valued at $159,800 for
testing, which is 25 percent ($159,800/$644,482) of the total equipment
cost shown on the lists provided to us.

        We tested the 64 items to determine whether the city accounted for,
protected from loss, and used the items for grant purposes. We verified
receipt of the items; however, we found that 4 of the 64 items were not
initially used for grant purposes. For Grant Number 2009-WS-QX-0115, the
city purchased and received four motion lights in August 2010 for $541 and
placed the lights in storage. The grantee provided us documentation
showing that the four motion lights were installed in November 2011,
14 months after the end of the grant.

       According to the Weed and Seed coordinator, city officials delayed
installation of the motion lights because they believed that some of the
locations originally identified for installation would be vulnerable to
vandalism and the equipment would go to waste. The maintenance staff
planned to develop a method to protect the lights, but they experienced
delays in developing an acceptable solution. After the Weed and Seed
coordinator identified lighting needs at another facility within the Weed and
Seed area, the lights were installed at those locations.




                                      14

Grant Reports

      Grantees are required to submit timely and accurate financial reports
and grant progress reports to the Office of Justice Programs. Prior to
October 2009, the city was required to submit quarterly Financial Status
Reports (FSR) within 45 days after the end of each quarterly reporting
period. Beginning October 1, 2009, the Federal Financial Report (FFR)
replaced the FSR. FFRs are due 30 days after the end of each calendar
quarter. A final financial report is due 90 days after the end of the grant
period.

      Grantees are required to submit annual progress reports regarding
grant performance for block and formula awards and semiannual reports for
discretionary awards. Annual progress reports must be submitted to the
Bureau of Justice Assistance no later than December 31. Semiannual
progress reports must be submitted twice a year within 30 days after the
end of the reporting periods, which are June 30 and December 31. The final
progress report is due 90 days after the expiration of the grant.

      For Recovery Act grants, grant recipients are required to report
quarterly to FederalReporting.gov their grant expenditures and the number
of jobs created or saved.

Federal Financial Reports

      We reviewed the FFRs for the four most recent quarterly reporting
periods for each of the five grants to determine whether the reports were
timely and whether the reported expenditures agreed with the grantee’s
accounting records.

      As shown in Exhibit 5, 2 of the 20 financial reports we reviewed were
each submitted 3 days late and 1 report was submitted 26 days late. The
JAG accountant responsible for submitting these reports resigned, and
consequently, we could not determine the cause for the 26-day delay.

           Exhibit 5: Federal Financial Reports Submitted Late
                             Report Period           Report      Date       Days
  Grant Number
                            From - To Dates         Due Date   Submitted    Late
2008-DJ-BX-0304        07/01/2009 - 09/30/2009      11/14/2009 11/17/2009     3
2008-DJ-BX-0304        04/01/2009 - 06/30/2009       8/14/2009  8/17/2009     3
2010-DJ-BX-1252        04/01/2010 - 06/30/2010       8/14/2010   9/9/2010    26
Source: OIG Analysis of Financial Federal Reports



                                           15
       We also reviewed all of the FFRs for accuracy by comparing the
reported expenditures to the grantee’s accounting records. The JAG
accountant used expenditure trial balance reports to prepare the FFRs. We
found that the JAG accountant did not maintain copies of the expenditure
trial balance reports used to prepare the FFRs. Because the JAG accountant
did not maintain copies of the reports, we used each grant’s transaction
records to determine the accuracy of the FSRs and FFRs. We determined
that all the JAG reports accurately reflected the grant-funded expenditures.

       The Weed and Seed accountant also used the expenditure trial balance
reports to prepare the FFRs. We determined that two of the four FFRs
reviewed were inaccurate. We compared the city’s transaction record dates
to the financial report dates and found expenditures reported for the period
ending June 30, 2010, were overstated and expenditures reported for the
following period ending August 31, 2010, were understated, causing each
report to be inaccurately stated by $5,033. We reviewed the expenditure
trial balance reports used to prepare the FFRs. Because the trial balance
report for the period ending June 30, 2010, was run on July 9, 2010, it
included transactions for the first 9 days of July. When using the
expenditure trial balance report, which summarizes costs as of the date the
finance system generates the report, the city should adjust the report to
obtain costs only for the period the FFR is being prepared.

Progress Reports

      According to the Financial Guide, award recipients must submit
progress reports annually for block/formula awards and semi-annually for
discretionary awards. These reports should describe the status of the
project and include a comparison of actual accomplishments to the
objectives, or other pertinent information. Also, according to
28 Code of Federal Regulations, Section 66.40, progress reports will contain
for each grant, brief information on:

     •	 a comparison of actual accomplishments to the objectives
        established for the period;

     •	 the reasons for slippage if established objectives were not met; and

     •	 additional pertinent information including, when appropriate,
        analysis and explanation of cost overruns or high unit costs.

      We tested whether the City of Montgomery submitted timely,
complete, and accurate progress reports. The results of our testing are
explained below.

                                     16

      JAG Awards

      We evaluated the timeliness of progress reports for the last 2 years for
each of the JAG awards. We found that all progress reports were submitted
timely.

       We tested the progress reports for completeness and accuracy by
comparing accomplishments described in the most recent report to the grant
application and supporting documentation maintained by the grantee. The
city received the 2008 through 2010 grants to purchase equipment and
reported that it purchased the equipment described in the grant applications.
We physically verified various grant-funded equipment items and found the
items were being used for grant purposes. We considered the progress
reports to be accurate.

      Weed and Seed Award

       We evaluated the timeliness of two of three progress reports for the
Weed and Seed grant. We found that one progress report was submitted 46
days late. The Weed and Seed coordinator told us the progress report was
late because of an oversight during changes in the staff who managed the
grant. During reorganization, the Weed and Seed coordinator received a
different job and relocated to another department.

      We also tested the completeness and accuracy of the progress reports
by comparing accomplishments described in the last two reports to the grant
application and supporting documentation maintained by the grantee. Both
reports contained statistical data, primarily in the law enforcement and
community-oriented policing areas. We tested eight statistics from each of
the reports. We found the statistical data to be supported and accurate.
However, the progress reports did not include analyses of the data to
determine whether the city met, or was making progress at meeting the
goals and objectives of the grant. This is discussed further in the Grant
Goals and Accomplishments section of this report.

Quarterly Recovery Act Reports

      The Recovery Act, Section 1512, requires recipients of Recovery Act
funds to report their expenditures and jobs created or saved to
FederalReporting.gov. The initial report was due October 10, 2009, with
quarterly reports due 10 days after the close of each quarter thereafter.

     Six of the seven reports were submitted timely. One report was
submitted 2 days late. The JAG manager told us the reports’ due dates are

                                     17

scheduled on a desk calendar. The JAG manager could not recall why the
report was submitted late. Although the progress report was only 2 days
late, the grantee should ensure that all reports are submitted timely.

      As shown in Exhibit 6, six of seven Recovery Act reports were
inaccurate because the city did not report cumulative expenditure totals.
We also determined the city’s accounting records were not used to prepare
the Recovery Act reports. Instead, the JAG manager maintained a file for
grant purchase orders and invoices, and she prepared the Recovery Act
reports from documents in this file. The use of accounting records to
prepare financial reports would ensure accurate and complete reporting of
expenditures.

             Exhibit 6: Recovery Act Reporting Accuracy
                                                   Recovery Act
                                  Reported         Expenditures
       Report Period            Recovery Act           Per            Difference
                                Expenditures        Accounting
                                                     Records
02/17/2009   -   09/30/2009                 $0          $345,077        $345,077
10/01/2009   -   12/31/2009           $444,182          $760,332        $316,150
01/01/2010   -   03/31/2010           $769,796          $789,259         $19,463
04/01/2010   -   06/30/2010           $789,259          $789,259              $0
07/01/2010   -   09/30/2010           $789,259          $801,121         $11,862
10/01/2010   -   12/31/2010                 $0          $801,121        $801,121
01/01/2011   -   03/31/2011                 $0          $801,121        $801,121
Source: FederalReporting.gov and OIG analysis of grant expenditures

       The city also did not report the county’s expenditures for purchased
equipment to FederalReporting.gov. The JAG manager told us that the city
believed the county was responsible for its own Recovery Act reporting
under the terms of the Interlocal Cooperative Agreement with the city.
However, according to the Financial Guide and the Recovery Act JAG Local
Solicitation, a unit of local government receiving a JAG award is responsible
for the administration of funds, including distribution of funds, monitoring
the award, submitting reports including performance measures and program
assessment data, and providing ongoing oversight and assistance to any
subrecipients of the funds. A county official told us the county did not report
Recovery Act expenditures because staff there was not aware of the
reporting requirement. Because the county’s expenditures did not include
staff positions, the reporting of jobs created was not applicable to the grant.
This is discussed further in the Monitoring Subrecipient section of this report.



                                          18

      We also found the city did not have policies and procedures to ensure
that Recovery Act reports were submitted timely and accurately. The JAG
manager told us there were no new policies and procedures developed to
address the Recovery Act reporting requirement. We asked city officials if
they received any Recovery Act training. City officials told us they had not
received any training.

     Because the city received the Recovery Act grant to purchase
equipment, the reporting requirement for jobs created and retained with
Recovery Act funds was not applicable.

      We recommend that the city develop and implement policies and
procedures to ensure grant required reports are submitted in a timely and
accurate manner.

Grant Goals and Accomplishments

      Grant goals and accomplishments should be based on measurable
outcomes rather than on counting activities. The Government Performance
and Result Act provides a framework for setting goals, measuring progress,
and using data to improve performance. To measure progress, grantees
should establish a baseline measure and a system for collecting and
analyzing data needed to measure progress.

JAG Awards

       To evaluate program performance and accomplishments for the grant
awards, we reviewed the grant applications, progress reports, and
supporting documentation of the project’s performance maintained by the
city. We found that the city did not track program performance or
accomplishment data related to the grants’ goals and objectives. We believe
the city should establish a baseline to measure performance outcome
instead of reporting progress made in the grant-funded purchases and data
collected. The results of our evaluation for each grant are explained below.

      Grant Number 2008-DJ-BX-0304 – The goals of this grant were to
advance the department’s technological capabilities by providing the
municipal jail and the police academy’s outdoor firing range with a
surveillance system and technological upgrades.

      We reviewed the final progress report in which the city reported that
the surveillance system enhanced observation at the outdoor firing range.
Although the city purchased and installed the surveillance system, the
progress report did not state how the system’s installation enhanced the

                                     19

firing range’s outdoor observation. Because there was no established
baseline to measure performance and a system for collecting and analyzing
data to evaluate the benefits received from the new equipment, we could not
determine whether the city met the goals and objectives of the grant. The
police department needs to establish a baseline measure of performance and
a system for collecting and analyzing data to evaluate the benefits received
from the new equipment.

       Grant Number 2009-DJ-BX-0806 – The goals of this grant were to
advance the city’s technological capabilities by funding equipment and
training to assist investigators, and to purchase spike strips for the patrol
division.

       In its most-recent progress report at the time of our audit, the city
reported that it purchased video enhancement equipment, video interview
equipment, vehicle spike strips, and eight laptop computers with motorcycle
mounts. The city also sent two detectives to computer forensic investigation
training. We reviewed the accounting and property records and verified
these equipment purchases and payments for the detectives’ training.

       Although the city purchased the equipment items, the progress report
did not state whether the items were operational or how they improved
operations. During the audit, we determined the city issued and installed
the video enhancement equipment. We verified the equipment was
operational. A motorcycle officer demonstrated to us how installed software
on the laptop computer provided access to an individual’s personal
information by entering a vehicle license plate number prior to contact. The
officer told us the software reduces the time it takes to record accident
investigation information, issue citations and prepare reports. We concluded
that grant goals were in the process of being met. However, the city needs
to establish a baseline to measure and report the benefits achieved from the
training and new equipment.

     Grant Number 2009-SB-B9-0926 – The goals of this grant were to
advance the department’s technological capabilities by purchasing various
equipment items and funding repairs to doors in the municipal jail. These
improvements were intended to improve officer and inmate safety.

      In its most-recent progress report at the time of our audit, the city
reported that it purchased 75 dashboard cameras, 43 rifles and vehicle
racks, and awarded a bid on the jail doors project. The city began work on
the jail doors in December 2010. We reviewed the accounting and property
records and determined that the city purchased dashboard cameras, rifles,
and vehicle racks.

                                       20

       Although the city purchased these equipment items, the progress
report did not state whether the items were operational or how those items
improved operations. However, we observed the contractor’s work on the
jail doors repair and determined that the city issued the rifles and vehicle
racks. We also determined that the dashboard cameras were installed and
operational. We concluded that the grant goals were in the process of being
met; however, the city needs to establish a baseline to measure and report
the benefits achieved from the repairs and new equipment.

     Grant Number 2010-DJ-BX-1252 – The goals of this grant were to
purchase a patrol division canine, training for a canine instructor,
temperature control devices for all canine vehicles, a firing range target
system, and hand-held radios for street officers.

       In its most-recent progress report at the time of our audit, the city
reported that it purchased the patrol canine and sent the handler to canine
instructor training. The patrol canine and handler completed training and
were planned to be placed into service after completing a fitness medical
exam. We reviewed the accounting and training records and determined the
city purchased a patrol canine and sent both the officer and the canine to
training. We concluded that grant goals were in the process of being met.
However, the city needs to establish a baseline from which to measure and
report the benefits achieved from the training and new equipment.

Weed and Seed Award

      Grant Number 2009-WS-QX-0015 – We reviewed the grant
application, the last two grant progress reports, and supporting
documentation of the project’s performance maintained by the city.
We selected a judgmental sample of the grant goals and compared them to
the progress reports and other documentation to determine whether the city
met or was in the process of meeting its program’s objectives.

       The goals of the 2009 Weed and Seed grant were to: reduce drug
supply and demand; develop an effective community policing program;
assist residents in obtaining substance abuse treatment services; provide
effective community-based prevention and intervention programming; and
focus on rehabilitation of housing stock and cleanup of properties, job
development and employment opportunities, and support to area businesses
to enhance economic development in the target area.

      In the progress reports, the city reported monthly statistical data and
provided the status of various projects. For example, the reports presented

                                      21

monthly statistical data consisting of the number of felony arrests,
misdemeanor arrests, warrants served, and traffic citations. We selected
eight statistical data elements from each of the two progress reports and
reviewed the supporting documentation. Although the data for the two
progress reports were accurate and supported, the city did not establish a
baseline and did not analyze the data to show that progress was made to
reduce drug supply and demand in the target area. Consequently, we could
not determine whether the city met its goals and objectives of the grant.
The Weed and Seed coordinator told us she believed the information
provided in the progress reports addressed the requirement for reporting the
grant’s progress and that the reported activities had been accepted by the
Office of Justice Programs.

      In summary, for the JAG awards reviewed, we found the city
purchased equipment and training in accordance with its grant applications,
but did not identify measurable goals for each grant or establish a system
for collecting and analyzing data to determine whether those goals and
objectives were being met. For the Weed and Seed grant, the city collected
data; however, the city did not establish a baseline to measure performance,
and did not analyze the collected data to determine whether the city met the
goals of the grant. The city needs to improve its process for measuring
progress towards the achievement of grant goals and objectives. The city
should also implement a process to identify measurable grant goals and
objectives, establish a baseline from which to measure progress, and track
performance through the completion of the grants.

Monitoring Contractors

      The Financial Guide states that direct recipients of grant funds should
monitor contractors to ensure compliance with financial management
requirements. Without proper monitoring and documentation, contractors
may receive payments for services not actually performed.

       The city awarded service contracts funded by the JAG Recovery Act
Award Number 2009-SB-B9-0926 and the Weed and Seed Award Number
2009-WS-QX-0115. We requested the city’s policies and procedures for
monitoring contractors. The JAG manager and Weed and Seed coordinator
were not aware of any policies and procedures for monitoring of contractors.
However, we noted that departments’ routinely handling contracts had
policies and procedures for monitoring contractors.

      The city awarded a contract for the repair of municipal jail doors under
the JAG Recovery Act Award Number 2009-SB-B9-0926. Because of the
technical expertise needed for the jail door repairs, the city hired a

                                      22

consultant to monitor the progress of the repairs and paid the consultant
from the general fund. According to city officials the consultant was on-site
during the jail door installation and addressed concerns regarding the doors
as needed. However, during our review of the contract file we noted
annotations on the contractor’s invoice that referenced an issue with the jail
door contract that required resolution prior to payment of the contract. The
JAG manager told us that the consultant provided no documentation
regarding the contractor’s performance. Because limited documentation was
available regarding contractor monitoring, we could not determine the
extent of the monitoring and the adequacy of the contractor’s performance.

       The city awarded four contracts for prevention, intervention, and
treatment program services for the Weed and Seed grant. The Weed and
Seed coordinator monitored the financial aspects of each contract by
reviewing and approving the documentation submitted for reimbursement.
The Weed and Seed coordinator conducted unscheduled site visits, provided
technical assistance, observed activities, and obtained participants’ feedback
about the program. However, the coordinator did not document any of
these activities because the site visits were routine and not considered as a
source for monitoring the contractors’ performance. Therefore, we could not
determine the adequacy of the contractor’s performance. We recommend
the city ensure adequate documentation for the monitoring of contractors.

Monitoring Subrecipients

       According to the Financial Guide, primary recipients of grant funds are
responsible for monitoring subrecipients to ensure the subrecipients fulfill
the fiscal and programmatic requirements of the grants. The primary
recipient is responsible for all aspects of the program including proper
accounting and financial recordkeeping by the subrecipient including the
receipt and expenditure of funds and cash management.

      The city and county submitted joint grant applications for JAG Award
Numbers 2008-DJ-BX-0304, 2009-DJ-BX-0806, 2010-DJ-BX-1252, and the
Recovery Act Grant Number 2009-SB-B9-0926. As the primary recipient
and fiscal agent for these grants, the city was responsible for monitoring the
subrecipient’s compliance with fiscal and programmatic requirements. We
found the city did not have procedures in place for monitoring subrecipients.
According to the JAG manager, the city believed the Interlocal Cooperative
Agreement between the two agencies relieved them of their monitoring
responsibility. However, according to the Interlocal Cooperative Agreement,
“the City shall submit all quarterly reports as required by the U.S.
Department of Justice, Office of Management and Budget for both City and
County Agencies for the entire grant period as well as performance reports.”

                                      23

As discussed earlier in the Grant Report section of this report, the city did
not properly monitor the county to ensure the quarterly Recovery Act reports
included the county’s expenditures. The 2009 Single Audit identified the
city’s lack of subrecipient monitoring as a finding. The city’s corrective
action to the audit finding included plans to obtain accounting records and
expenditure documentation. We found the city obtained the grant
expenditure documentation from the county. According to the previous JAG
accountant, the invoices are reconciled to the grant amount advanced and
the budget. However, our review found no evidence the city performed
reconciliations of the expenditure documentation. The current JAG
accountant told us that he was not aware of the reconciliation requirement.

       We reviewed the county’s expenditure documentation and identified
three discrepancies for Grant Number 2009-SB-B9-0926. These
discrepancies consisted of two inaccurate recorded transactions, resulting in
a $44 overcharge to the grant and one unallowable transaction having a cost
of $7,250 for the purchase of three vehicle shelters. We did not take
exception to the $44 overcharge, because of its minimal value. However,
we reviewed the county’s grant budget and found the shelters were not an
approved budget item. According to the grant budget narrative, grant
funded equipment purchases were for officers and citizens safety and to aid
officers in the performance of their duties. We discussed the purchase of the
shelters with the Office of Justice Programs. The Office of Justice Programs
staff told us the shelters were a change in scope and the county should have
submitted a grant adjustment notice. We discussed the shelters purchase
with the county and found they were not aware of the requirement to submit
a grant adjustment notice. The county considered the shelters to be
equipment because the shelters were not a permanent structure. County
officials told us they were not aware that the shelters purchase changed the
scope of the grant. We considered the shelters to be a change in the grant’s
scope, which requires prior approval from the program office. 13

      Because of our audit results that addressed the city’s practice of
providing a one-time advance payment to its subrecipient for JAG awards
and not fulfilling its monitoring responsibilities, the city revised and
implemented a reimbursement payment policy with the county. 14


       13
           According to the Financial Guide, changes in scope, duration, activities, or other
significant areas are changes that require prior approval from the bureau or program office
through a grant adjustment notice.
       14
          The signed memorandum of understanding between the city and county for the
2012 JAG award states the city will reimburse the county’s grant expenses when the county
provides appropriate documentation.

                                              24

     We recommend the city continue to develop and implement policy and
procedures for monitoring of subrecipients to ensure they meet the reporting
and programmatic requirements of the grants.

Conclusion

      The City of Montgomery generally complied with the requirements
pertaining to internal controls, grant drawdowns, budget management and
control, property management, and matching costs. However, we found
weaknesses in the areas of grant expenditures, financial and programmatic
reports, grant goals and accomplishments, monitoring contractors, and the
monitoring of subrecipients.

Specifically, we found the following.

   1. The city spent $42,513 in grant funds for costs that were unsupported
      and unallowable. Those costs consisted of: (1) unsupported
      personnel costs of $2,409; (2) unsupported other direct costs of
      $32,854; and (3) unallowable subrecipient costs of $7,250.

   2. The city did not always submit timely and accurate financial, progress,
      and Recovery Act reports.

   3. The city could not show that it met the goals and objectives of the
      grants. For JAG awards, the city did not establish performance
      measures. For the Weed and Seed grant, the city had appropriate
      performance measures, but did not establish a baseline or analyze the
      data collected to measure progress.

   4. The city did not document the monitoring of contractors.

   5. The city did not fulfill its responsibilities for subrecipient monitoring to
      ensure accurate reporting of Recovery Act expenditures and adherence
      to Office of Justice Programs’ guidance.

      Because of these weaknesses, we recommend that the Office of Justice
Programs remedy $42,513 in unsupported and unallowable costs. We also
make four recommendations to improve the city’s management of grants.




                                        25

Recommendations

We recommend that the Office of Justice Programs:

  1. Remedy the $2,409 in unsupported officer overtime charged to Grant
     Number 2009-WS-QX-0115.

  2. Remedy the $32,854 in unsupported equipment costs charged to
     Grant Number 2009-DJ-BX-0806.

  3. Remedy the $7,250 in unallowable costs for vehicle shelters charged
     to Grant Number 2009-SB-B9-0926.

  4. Ensure the city develops and implements policy and procedures to
     submit financial, progress, and Recovery Act reports in a timely and
     accurate manner.

  5. Ensure the city implements a process for identifying measurable goals
     for each grant and a process for collecting and analyzing data to track
     performance through completion of the grants.

  6. Ensure the city develops and implements policy and procedures for
     documenting the monitoring of contractors.

  7. Ensure the city develops and implements a process for monitoring
     subrecipients to ensure they meet the reporting and programmatic
     requirements of the grants.




                                    26

                                                                  APPENDIX 1

               OBJECTIVES, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether the City of
Montgomery used grant funds for costs that were allowable, supported, and
in accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grants; whether the city met or was on track to meet the
goals and objectives outlined in the grant programs and applications; and
submitted timely and accurate Recovery Act spending and job data to
FederalReporting.gov.

       The objectives of the audit were to determine whether the City of
Montgomery complied with essential grant conditions pertaining to:
(1) internal controls; (2) grant drawdowns; (3) grant expenditures;
(4) budget management and control; (5) matching costs; (6) property
management; (7) financial, progress, and Recovery Act reports; (8) grant
goals and accomplishments; (9) monitoring contractors; and (10) monitoring
subrecipients.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

       Our audit scope covered the 2009 JAG Recovery Act, the 2008,
2009, and 2010 JAG awards, and a 2009 Weed and Seed grant that had
sufficient activity to test the grantee’s management of grants and
subrecipients. We tested compliance with what we consider to be the
most important conditions of the grants. Unless otherwise stated in our
report, the criteria we audit against are contained in the Office of Justice
Programs’ Financial Guide, Office of Management and Budget Circulars,
and specific program guidance.

      In conducting our audit, we performed sample testing in drawdowns;
grant expenditures, including personnel and other direct costs; financial and
grant progress reports; property management; matching costs; and grant
goals and accomplishments. In this effort, we employed a judgmental
sampling design to obtain broad exposure to numerous facets of the grants
reviewed, such as dollar amounts or expenditure category.


                                       27

We selected judgmental sample sizes for the testing of each grant. This
non-statistical sample design does not allow projection of the test results to
the universe from which the samples were selected.

     In addition, we reviewed the timeliness and accuracy of financial,
progress, and Recovery Act reports, compared performance to grant goals,
and whether the city adequately monitored contractors and subrecipients.
We did not assess the reliability of the financial management system as a
whole.




                                      28

                                                                           APPENDIX 2

                SCHEDULE OF DOLLAR-RELATED FINDINGS15

                 Description                                      Amount            Page
Questioned Costs - Unsupported:
  Police Overtime
                                                                         $2,409       11
      2009-WS-QX-0115
  Unauthorized Purchases
                                                                       $32,854        12
      2009-DJ-BX-0806
          Total Unsupported Costs                                     $35,263
Questioned Costs - Unallowable:
  Three vehicle shelter purchases
                                                                        $7,250        24
      2009-SB-B9-0926
          Total Unallowable Costs                                       $7,250
       Total Dollar-Related Findings                                  $42,513




       15
           Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or not supported by adequate documentation at the time of the
audit, or are unnecessary or reasonable. Questioned costs may be remedied by offset,
waiver, recovery of funds, or the provision of supporting documentation.

                                            29
                                                                                              APPENDIX 3

     OJP’S RESPONSE TO THE DRAFT AUDIT REPORT

                                                    U.S. Oepa rtmeot of Justice

                                                    Office ofJustice Programs

                                                   Office ofAudit, Assessment, and Management


                                                   Wa.hlngtOll D.C 205jl




" 'SEP .2012.
....,

MEMORANDUM TO:                 Ferris B. Polk
                               Regional Audit Manager
                               Atlanta Regional Aud it Office
                               Office of the Inspector General

FROM:                          Maure~. Henn:berg
                               Director   YV\.../\~                        r
SUBJECT:                       Response to the Draft Audit Report, Audit afOffice ofJustice
                               Programs Grants Awarded to the City of Montgomery. Alabama

This memorandum is in response to your correspondence, dated August 7, 2012, transmitting the
subject draft audit report for the City of Montgomery, Alabama (City). We consider the subject
report resolved and request written acceptance of this actio n from your office.

The draft audit report contains seven recommendati ons and 542,.5 13 in questioned costs. The
following is the Office of Justice Programs' (OJP) analysis o f the draft audit report
recommendations. For ease of review, the recommendat ions are restated in bold and are
followed by our response.

I,      We recomme nd tbat OJP rem edy tbe $2,409 in unsupported officer overtime
        charged to Grant Number 2009-WS-QX-0IlS.

        We agree with the recommendation. We will coordinate with the City to remedy the
        $2,409 in questioned costs, related to lUlSupportcd officer overtime costs charged to Gmnt
        Number 2009-WS-QX-01 15. If adequate documentation cannot be provided, we will
        req ucst that the City return the funds to the U.S. Department of Justice (DOJ); adjust tbe ir
        accounting rccords to removc the costs; and submit a revised final Federal Financial
        Report (FFR) for the grant.




                                                 30

                                                   

2.   We recommend that OJP re medy the $32,854 in unsupported equipment costs
     charged tn Grant Number 2009-DJ-8X·0806.

     We agrce with the recommendation_ We will coordinate with the City to remedy the
     $32,854 in questioned COSls, related to unsupported equipment costs chargcd lO Grant
     Number 2009-DJ-BX-0806. If adequate documentation cannot be provided, we will
     request that the C ity return the funds to the DOJ; adjust their accounting records to
     remove the costs; and submit a revised final FFR for the grant.

3.   We recommend that OJP remedy the $7,250 in unaUowable costs for vehicle shelters
     charged to Grant Number 2009-S8-89-0926_

     We agree with the recommendation. We will coordinate with the City to remedy the
     $7,250 in questioned costs l.:harged to Grant Number 2009-SB-89-0926, related to the
     unauthorized purchase of vehicle shelters by a subgrantee. If adequate documentation
     cannot be provided, we will requesl thai Ihe City return the fund~ to the DOJ; adjust their
     accounting records to remove the co~ts; and ~ubmit a revised final FFR for the grant.

4.   Wc ncommend that OJP ensures that the City develops and implcments policie.~
     and procedures to submit financial, progress, and Recovery Act reports in a timely
     and accurate manner.

     We agree with the recommendation. We will coordinate with the City to obtain a copy of
     procedures implemented to ensure that financial , progress, and Recovery Act reports are
     submitted in a timely and accurate manner.

5.   We recommend that OJP ensures that the City implements a process for identifying
     measurable goals for each grant, and a procelSs for collecting and analy;t;illg data to
     track performance through completion of the grants.

     We agree with the recommendation. We will coordinate with the City to obtain a copy of
     procedures implemented to ensure that a process is in place for identifying measurable
     goals for each grant, and for collecting and analyzing data to track perfonnance through
     the completion of the grantS.

6.   We recommend that OJP ensures that the City develops and implements policies
     and procedures for documeotiog the mooitoring of cootractors.

     We agree with the recommendation. We w ill coordinate with the City to obtain a copy of
     procedures implemcnlcd to Cnsure that the monitoring of contractors is adequately
     documented.




                                             31

                                               

7.     We recommeod Ibal OJP ensures Iha t the City develo ps and implements II prtKess
       fo r monitoring s ubrecipients, to ens ure that they meet the reporting a nd
       programma tic requirements of the grants.

       We agree with the recommendation. We will coordinate with the City to obtain a copy of
       procedures implemented to monitor subrecipients to ensure that the reporting and
       programmatic requirements of the grants are met.

We appreciate the opportunity to review and comment on the draft audit report. IfyOll have any
questions or require additional infonnation, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616·2936.

cc:    JefTery A. Haley
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management

       Tracey Trautman
       Acting Deputy Director for Programs
       Bureau of Justice Assistance

       Amanda loCicero
       Audit Liaison
       Bureau of Justice Assistance

       Cynthia Simons
       Grant Program SpcciaJist
       Bureau of Justice Assistance

       Louise Duhamel, Ph.D.
       Acting Assistant Director, Audit Liaison Group
       Internal Rcvicw and Evaluation Office
       Justice Management Division

       QJP Executive Secretariat
       Control Number 20 121319




                                             32

                                               

                                                                                                                   APPENDIX 4

                    THE CITY OF MONTGOMERY’S RESPONSE
                         TO THE DRAFT AUDIT REPORT



            ••••                               O F FI CE OFTHE MAYOR                                                PI· 1 11 + . 6 ~5 . "00 0




           : m•:
                                                                                    Po>! OffI ce 6<>. I n.
                                                                                    Mo ,,'go onuy .   Ah b ~ ",~    FX 3 34.hS .,,6oo
                                               Todd Sfrangr. M'9'or                              ]6,,,. -,,,,
           •   ~


City oj   Montgome ry,        Ala b am a


   August 28, 2012


   Mr. Ferris B. Polk
   Regional Audit Manager
   Office of the Inspector General
   Atlanta Regional Audit Office
   U.S. Department of Justice
   75 Spring Street, Suite 1130
   Atlanta, GA 30323

   Dear Mr. Polk:

       I am writing in response to the draft audit report issued by the United States Department of Justice
   Office of the Inspector General to the City of Montgomery on August 7. 2012.
       On behalf of the City of Montgomery, I would like to express my appreciation to the Department of
   Justice Office of Justice Programs for the funding received through these grant programs addressed in
   this audit. I served as chairperson of the Montgomery Weed and Seed Steering Committee, and I can
   attest to the significant positive change the program initiated in the designated Weed and Seed
   community and within our city government's processes of working with citizens to more effectively
   address community concerns. I also know that the equipment provided through the JAG funding made a
   significant contribution to the increased efficiency of our Montgomery Police Department.
       Below I list the report' s three recommendations to address dollar-related findings and four
   recommendations to improve the management of Department of Justice grants. After each
   recommendation is stated, I provide the C ity' s response for that numbered item.

   DO] OIG Audit Report Recommendati ons
   I) Remedy the $2,409 in unsupported officer overtime charged to Grant Number 2009- WS-QX-01 15.
      Response 1a: The C ity does not concur with the finding on inaccurate rate calculations in the amount
      of$230.87. Below are the explanations for the rate calculations in question:
          Amount 0[$112.98 on 3/3/ 10 Detail:
          The officer needed to work 3.5 hours to complete the initial 6 hours of comp time required to be
          paid at the straight rate. The next 1.5 hours were eligible for the overtime rate of time and a half.
          All hours qual ified for the enhanced 4th shift differential rate.
          3.5 hours x $19.64751hr. (straight 4"' shift differential rate) ~ $68.77
           1.5 hours x $29.47 1251hr. (overtime 4th shift differential rate) = $44.21
          Amount of $1 17.89 on 9/28/09 Detail:
          The officer worked all hours as overtime and quali fied for the 4th shift differential rate.
          4 hours x $29.47 1251hr. (overtime 4th shift differential rate) = $117.89
      Response 1b: The City does not concur with the finding of unavai lable overtime sheets for officers
      in the amount of$551.18 . Attached are copies of the overtime sheets listed as una vailable in the
      report, which were copied from the Weed and Seed site coordinator' s files, but also avai lab le in the
      Finance Department files.




                                                         33

Mr. Ferris B. Polk
August 28, 2012
Page 2

    Response / c: The City does concur with the finding that some overtime vouchers for the supervisors
    of overtime details did not include their supervi sor's signature. Anticipated planned actions include
    adding to the Montgomery Police Department's written policies and procedures that all overtime and
    comp tirne vouchers must be signed by the employee's supervisor before they are submitted for
    processing for payment. All officers wi ll be notified by memo of the addition to the written po licy
    and procedures as well. The City proposes addressing the unsupported overtime by providing
    certification retroactively by MPD officials that the officers did work the stated shifts. These actions
    will occur by October 1,2012.
2) Remedy the $32,854 in unsupported equipment costs charged to Grant Number 2009-DJ-BX-0806.
   Response: The City concurs with the finding. A purchase order was originally processed and
   approved at all levels, but was not executed in a timely fashion due to a change order, and that
   paperwork is available for review. To expedite the payment to the vendor, a special payment
   authorization was processed and executed with appropriate signatures, and the equipment was
   received by MPD. Subsequently that document was pulled from the fil e and never replaced.
   Completed actions taken include corrective act ion for appropriate accounts payable staff to ensure
   timely processing of purchase orders and the implementation of a new software system to allow for
   efficient tracking of all invoices and purchase orders submitted to the Finance Department for
   payment. The Finance Department's grants accountants have set up separate filing systems for
   financial paperwork related to federal grants with each grant 's required maintenance timeframe
   clearly marked, and only the grants accountants will detennine when those files are removed from
   the City's rnaintenance. Anticipated planned actions include establi shing a system for scanning of
   those documents by the Finance Department staff to ensure further their maintenance beginning in
   October 20 12.
3) Remedy the $7,250 in unallowable costs for vehicle shelters charged to Grant Number 2009-S8-89-
   0926.
   Response: The City concurs with the find ing. Completed actions taken include the City'S withdrawal
   of the unallowable charges and submission of eligible project charges expended within the grant
   project period by subgrantee Montgomery County. This corrective action was taken through
   paperwork submitted to close out of the grant in consultation with the DO} program manager.
4) Ensure the City develops and implements policy and procedures to submit finan cial, progress, and
   Recovery Act reports in a timely and accurate manner.
   Response: The City concurs with the finding. Anticipated planned actions include the development
   and implementation of a federal grant policy and procedures document. The document and its
   implementation will address this issue to ensure all City employees tasked with administering
   federal grants will be aware of the City' s expectation of timely submission of all grant reports to the
   appropriate federal agency, and that their supervisors will be aware of the need to ensure their staff is
   meeting this requirement. A work group of the Deputy Mayor, Finance Director, and Planning
   Director has been establi shed to direct this action. A proposed timeline for completion of the
   document's development and distribution to all departments is December 31, 2012.
5) Ensure the City implements a process for identifying measurable goals for each grant and a process
   for co llecting and analyzing data to track performance through completion of the grants.
   Response: The City concurs with the findin g. Anticipated planned actions include the development
   and implementation of a federal grant policy and procedures document to ensure all City employees
   tasked with administering federal grants will be knowledgeable of the process for goal setting and
   data co llection/analysis, and that their supervisors will be aware of the need to make certain their




                                                     34

Mr. Ferris B. Polk
August 28, 2012
Page 3

    staff is meeting this requirement. A work group of the Deputy Mayor, Finance Director, and
    Planning Director has been established to direct this action. A proposed timeline for completion of
    the document's development and distribution to all departments is December 31, 2012. The Planning
    Department will provide technical assistance to City employees as needed regarding goal setti ng and
    data collection and analysis.
6) Ensure the City develops and implements policy and procedures for documenting the monitoring of
   contractors.
   Response: The City concurs with the finding. Anticipated planned actions include the development
   and implementation of a federal grant policy and procedures document to ensure all City employees
   tasked with administering federal grants wi ll be knowledgeable of the process for monitoring of
   contractors and documentation of that effort, and that their supervisors will be aware of the need to
   make certain their staff is meeting this requirement. A work group of the Deputy Mayor, Finance
   Director, and Planning Director has been established to direct this action. A proposed timeline for
   completion of the document' s development and distribution to all departments is December 31,
   20 12. The Planning Department wi ll provide technical assistance as needed to City employees
   regarding monitoring of contractors.
7) Ensure the City develops and implements a process for monitoring subrecipients to ensure they meet
   the reporting and programmatic requirements of the grants.
   Response: The City concurs with the finding. Completed actions include Montgomery Police
   Department altering its procedures for DOl grants that are provided to the City of Montgomery for
   administration, with an expectation that the Montgomery County Sheriffs Office will be designated
   as a subrecipient for a portion of the funding. In the past the County's share of grant fundin g was
   provided at the grant's start, and now funding will be provided on a reimbursement basis only. Other
   City DOl grants already have operated in this manner. This change will ensure that proper records
   and data collection are provided to the City of Montgomery by Montgomery County. Anticipated
   planned actions include the development and implementation of a federal grant policy and
   procedures document to ensure all City employees tasked with administering federal grants will be
   knowledgeable of the process for monitoring of subrecipients and docwnentation of that effort, and
   that their supervisors will be aware of the need to make certain their staff is meeting this
   requirement. A work group of the Deputy Mayor, Finance Director, and Planning Director has been
   established to direct this action. A proposed timeline for completion of the document's development
   and distribution to all departments is December 31 , 2012. The Planning Department will provide
   technical assistance to City employees regarding monitoring of subrecipients as requested.

    I and my staff will work diligently with DOl OlP officials to address these recommendations with
actions that will improve our grant admini stration processes. Please contact me at
334-625-2002 or jdownes@montgomerya1.gov with any concerns or guidance you may provide.

Sincerely,



~~
Deputy Mayor / Chief of Staff

Enclosures (6)




                                                   35

                                                                APPENDIX 5

                 OFFICE OF THE INSPECTOR GENERAL

                ANALYSIS AND SUMMARY OF ACTIONS

                  NECESSARY TO CLOSE THE REPORT


      The Office of the Inspector General (OIG) provided a draft audit report
to the Office of Justice Programs (OJP) and the City of Montgomery. OJP’s
response is incorporated in Appendix 3 and city’s response is incorporated in
Appendix 4.

Recommendation Number:

  1. Resolved.	 OJP concurred with our recommendation to remedy the
     $2,409 in unsupported officer overtime charged to Grant Number
     2009-WS-QX-0115. OJP stated in its response that it will coordinate
     with the city to remedy the questioned costs.

     In its response, the city disagreed with part of our recommendation.
     Specifically, the city stated it does not concur with the questioned
     costs pertaining to $231 in inaccurate overtime rate calculations and
     $551 in unavailable overtime sheets for officers. However, the city
     does concur with the $1,627 in questioned costs pertaining to overtime
     vouchers that did not include the supervisor’s signature. To address
     the unsupported overtime costs, the city provided calculations for the
     questioned overtime rate based on a fourth shift differential rate and
     copies of the unavailable overtime sheets. The city also plans to add
     guidance to the police department’s policies and procedures. This
     guidance requires all overtime and compensatory time vouchers to be
     signed by employees’ supervisor before submission for payment. The
     city proposed to address the unsupported overtime by providing
     retroactive certification for the overtime hours worked by officers. Our
     analysis of the city’s reply is below.

     During the audit, we requested supporting documentation for shift
     differential rates and overtime sheets for officers. City officials
     provided second and third shift differential rates and did not identify a
     fourth shift differential rate. Consequently, we did not consider a
     fourth shift differential rate during our analysis of the overtime costs
     charged to Grant Number 2009-WS-QX-0115. Because the city’s
     response did not include documentation for the fourth shift differential
     rate, we do not have support for the $231 in questioned overtime
     differential calculations. Regarding the $551 in questioned overtime


                                     36

   costs, the overtime sheets provided with the city’s response appear
   sufficient to support the costs.

   This recommendation can be closed when we receive and review:
   (1) documentation that supports a fourth shift differential rate,
   (2) policies and procedures to ensure employee overtime and 

   compensatory time vouchers are signed by their supervisor,

   (3) certification documentation that supports the overtime worked by
   officers for the stated shifts, and (4) OJP’s agreement that the $551 in
   questioned overtime costs are supported.

2. Resolved.	 OJP concurred with our recommendation to remedy the
   $32,854 in unsupported equipment costs charged to Grant Number
   2009-DJ-BX-0806. OJP stated in its response that it will coordinate
   with the city to remedy the questioned costs.

   The city concurred with our recommendation and stated that it has
   taken corrective action to ensure timely processing of purchase orders
   and efficient tracking of all invoices and purchase orders submitted for
   payment.

   This recommendation can be closed when the $32,854 in questioned
   costs has been remedied.

3. Resolved.	 OJP concurred with our recommendation to remedy the
   $7,250 in unallowable costs for vehicle shelters charged to Grant
   Number 2009-SB-B9-0926. OJP stated in its response that it will
   coordinate with the city to remedy the questioned costs.

   The city concurred with our recommendation and stated that it
   submitted closeout documentation to the OJP program manager to
   adjust the unallowable charges to the grant project.

   This recommendation can be closed when the $7,250 in questioned
   costs has been remedied.

4. Resolved.	 OJP concurred with our recommendation that the city
   develop and implement policy and procedures to submit financial,
   progress, and Recovery Act reports in a timely and accurate manner.
   OJP stated in its response that it will coordinate with the city to obtain
   a copy of procedures implemented to ensure that financial, progress,
   and Recovery Act reports are submitted in a timely and accurate
   manner.


                                    37

  The city concurred with our recommendation and stated that it plans
  to develop and implement federal grant policies and procedures to
  ensure all grant administration staff timely submit grant reports.

  This recommendation can be closed when we receive and review
  procedures implemented by the city to ensure financial, progress, and
  Recovery Act reports are submitted in a timely and accurate manner.

5. Resolved.	 OJP concurred with our recommendation that the city
   implement processes for identifying measurable goals for each grant
   and collecting and analyzing data to track performance through
   completion of the grants. OJP stated in its response that it will
   coordinate with the city to obtain a copy of procedures implemented to
   ensure that processes are in place for identifying measurable goals for
   each grant and collecting and analyzing data to track performance
   through the completion of the grants.

  The city concurred with our recommendation and stated that it plans
  to develop and implement grant policies and procedures to ensure
  grant administration staff are knowledgeable of the requirements for
  goal setting and data analyses for identifying grant goals and tracking
  performance throughout the grant.

  This recommendation can be closed when we receive and review
  procedures that ensure the city implemented processes for identifying
  measurable goals for each grant and collecting and analyzing data to
  track performance through the completion of the grants.

6. Resolved.	 OJP concurred with our recommendation that the city
   develop and implement policy and procedures for documenting the
   monitoring of contractors. OJP stated in its response that it will
   coordinate with the city to obtain a copy of procedures implemented to
   ensure that the monitoring of contractors is adequately documented.

  The city concurred with our recommendation and stated that it plans
  to develop and implement grant policies and procedures to ensure all
  grant administration staff monitors contractors and documents their
  monitoring efforts.

  This recommendation can be closed when we receive and review

  procedures that ensure the city’s monitoring of contractors is

  adequately documented.




                                  38

7. Resolved.	 OJP concurred with our recommendation that the city
   develop and implement a process for monitoring subrecipients to
   ensure they meet the reporting and programmatic requirements of the
   grants. OJP stated in its response that it will coordinate with the city
   to obtain a copy of procedures implemented to monitor subrecipients
   to ensure the reporting and programmatic requirements of the grants
   are met.

   The city concurred with our recommendation and stated that it plans
   to develop and implement policies and procedures to ensure all grant
   administration staff monitor subrecipients and document their
   monitoring efforts.

   This recommendation can be closed when we receive and review

   procedures that the city implemented a process for monitoring 

   subrecipients that ensures the reporting and programmatic

   requirements of the grants are met.





                                  39

